No. 20A34
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES FOOD AND DRUG ADMINISTRATION, ET AL., APPLICANTS
v.
AMERICAN COLLEGE OF OBSTETRICIANS AND GYNECOLOGISTS, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
SUPPLEMENTAL BRIEF IN SUPPORT OF APPLICATION FOR A STAY, via email and
first-class mail, postage prepaid, this 15th day of December, 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 15, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218. Thank
you for your consideration of this request.

ACOG V. FDA Service List:
Plaintiff-Appellees
Loie Ann Chaiten
Direct: 312-307-8027
Email: rfp_lc@aclu.org
AMERICAN CIVIL LIBERTIES UNION
150 North Michigan Avenue
Chicago, IL 60601
Gina Marie Colarusso
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Avenue, NW
Washington, DC 20001
Anjali Sudhir Dalal
Direct: 646-905-8932
Email: adalal@aclu.org
AMERICAN CIVIL LIBERTIES UNION
18th Floor
125 Broad Street
New York, NY 10004
Jennifer Ellen Dalven
Direct: 646-905-8932
Email: jdalven@aclu.org
AMERICAN CIVIL LIBERTIES UNION
125 Broad Street
New York, NY 10004
John A. Freedman, Esq.
Direct: 202-942-5316
Email: john.freedman@arnoldporter.com
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Avenue, NW
Washington, DC 20001
Ruth Ellen Harlow
Direct 646-905-8932
Email: rharlow@aclu.org
AMERICA CIVIL LIBERTIES UNION
125 Broad Street
New York, NY 1004

Julia Heather Kaye
Direct: 212-284-7358
Email: jkaye@aclu.org
AMERICAN CIVIL LIBERTIES UNION
125 Broad Street
New York, NY 20004
Rachel Marris Reeves
Direct: 646-905-8835
AMERICAN CIVIL LIBERTIES UNION
125 Broad Street
18th Floor
New York, NY 20004
Andrew Tutt
Direct: 202-942-5242
Email: Andrew.tutt@arnoldporter.com
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Avenue NS
Washington, DC 20001
David Weiner
Direct: 202-942-6702
Email: David.Weiner@aporter.com
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Avenue, NW
Washington, DC 20001
Jocelyn Annette Wiesner
Direct: 202-942-5810
Email: jocelynwiesner@arnoldporter.com
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Avenue, NW
Washington, DC 20001
Amicus Supporting Defendant-Appellant
Thomas Molnar Fisher, Solicitor General
Direct: 317-232-6255
Email: tom.fisher@atg.in.gov
OFFICE OF THE ATTORNEY GENERAL OF INDIANA
IGCS 5th Floor
302 West Washington Street
Indianapolis, IN 46204

Curtis T. Hill, Jr.
OFFICE OF THE ATTORNEY GENERAL OF INDIANA
302 West Washington Street
Indianapolis, IN 46204
Jeff Landry
OFFICE OF THE ATTORNEY GENERAL OF LOUSIANA
P.O. Box 94095
Baton Rouge, LA 70804-4095
Elizabeth Baker Murrill
Direct: 225-326-6766
Email: murrille@ag.louisiana.gov
P.O. Box 94095
Baton Rouge, LA 70804-4095
Julia Payne
OFFICE OF THE ATTORNEY GENERAL OF INDIANA
302 West Washington Street
Indianapolis, IN 46204
Gene C. Schaerr
Direct: 202-787-1060
Email: Gschaerr@schaerr-jaffe.com
SCHAERR JAFFE LLP
Suite 900
1717 K Street, NW
Washington, DC 20006
Stephen S. Schwartz
Direct: 202-787-1060
Email: sschwartz@schaerr-duncan.com
SCHAERR JAFFE LLP
Suite 900
1717 K Street, NW
Washington, DC 20006
Ken Paxton
Direct: 512-936-1700
OFFICE OF THE ATTORNEY GENERAL OF TEXAS
P.O box 12548
Austin, TX 7811-2548

Amicus Supporting Plaintiff-Appellee
Anisha Dasgupta
Direct: 212-416-8921
Email: anisha.dasgupta@ag.ny.gov
OFFICE OF THE ATTORNEY GENERAL OF NEW YORK
23rd Floor
28 Liberty Street
New York, NY 10005
Letitia James
Direct: 518-776-2400
OFFICE OF THE ATTORNEY GENERAL
The Capitol
Albany, NY 12224-0000
Barbara D. Underwood, Solicitor General
NEW YORK STATE DEPARTMENT OF LAW
Environmental Protection Bureau
The Capitol
Albany, NY 12224-0000
Kimberly A Parker
Direct: 202-663-6987
Email: Kimberly.parker@wilmerhale.com
WILMERHALE LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006-0000

